OIG Investigative Reports, Former Financial Aid Director at Central Michigan University Pleads Guilty to SFA Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of JusticeUnited States AttorneyEastern District of Michigan
Northern Division101 First Street, Suite 200Bay City, Michigan
November 21, 2002
Contact: (313) 226-9758  -  Gina Balaya>
Former Financial Aid Director at Central Michigan University Pleads Guilty to SFA Fraud
United States Attorney Jeffrey G. Collins announced that Linda Mrochinski, 49, a former resident of Mt. Pleasant, Michigan, now living in Pewaukee, Wisconsin, entered a plea of guilty before United States District Judge David M. Lawson in federal court on Wednesday, November 20, 2002, to a charge that, while employed at Central Michigan University in 2000, she embezzled, obtained by fraud, and misapplied financial aid loan funds by enrolling for courses at the University and then using her position in the Financial Aid office at CMU to manipulate the system so that student loan funds to which she was not entitled and was not eligible to receive were nonetheless disbursed to her. Approximately $4,839 was fraudulently obtained.
Assistant United States Attorney James A. Brunson, who prosecuted the case, stated that, "The information presented to the court at the time of the plea showed that Ms. Mrochinski, while employed in the University financial aid office, changed a computer code within the financial aid office, deleting a code which would have prevented her from obtaining a student loan." Assistant U.S. Attorney Brunson added that, "Sentencing of Ms. Mrochinski was scheduled by Judge Lawson for February 20, 2003 at 3:00 p.m. Ms. Mrochinski faces a maximum penalty of up to 5 years in prison and a fine of up to $250,000. She may be further ordered to pay restitution in the amount of $26,097.00 and a $100 special assessment fee. The sentence will be imposed under the United States Sentencing Guidelines according to the nature of the offense." Attorney Brunson stated, "Ms. Mrochinski was continued on bond pending her sentencing."
The case was investigated by the United States Department of Education.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov